EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                           OFFICE OF INSPECTOR GENERAL
                                EXPORT-IMPORT BANK
                                  of the UNITED STATES




     Report on the PNG LNG
      Project Financing
         (Redacted for Public Release)




                                                   June 18, 2014
                                                   OIG-INS-14-01
       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


 The Export-Import Bank of the United States (Ex-Im Bank) is the
official export-credit agency of the United States. Ex-Im Bank is an
independent, self-sustaining executive agency and a wholly-owned
U.S. government corporation. Ex-Im Bank’s mission is to support
jobs in the United States by facilitating the export of U.S. goods
and services. Ex-Im Bank provides competitive export financing
and ensures a level playing field for U.S. exports in the global
marketplace.


The Office of Inspector General, an independent office within Ex-
Im Bank, was statutorily created in 2002 and organized in 2007.
The mission of the Ex-Im Bank Office of Inspector General is to
conduct and supervise audits, investigations, inspections, and
evaluations related to agency programs and operations; provide
leadership and coordination as well as recommend policies that
will promote economy, efficiency, and effectiveness in such
programs and operations; and prevent and detect fraud, waste,
abuse, and mismanagement.


This inspection was conducted in accordance with the 2012
Quality Standards for Inspection and Evaluation as defined by The
Council of Inspectors General on Integrity and Efficiency. This
report does not constitute a Government audit and therefore, it
was not conducted following the Generally Accepted Government
Auditing Standards (“GAGAS”).




          PNG LNG INSPECTION REPORT OIG-INS-14-01
To: 	         David Sena, Senior Vice President & Chief Financial Officer
              Claudia Slacik, Senior Vice President & Chief Banking Officer
From: 	       Mark Thorum
              Assistant Inspector General for Inspections & Evaluations

Subject: 	    PNG LNG Inspection Report
              AP084099XX
Date: 	       June 18, 2014


Attached please find the final inspection report on the PNG LNG project AP084099XX – Papua New
Guinea. The report outlines three recommendations for corrective action. Management’s response is
included as an appendix to the final report. We consider management’s proposed actions to be
responsive. The recommendations will be closed upon completion and verification of the proposed
actions.
We appreciate the courtesies and cooperation extended to us during the inspection.

cc:       Fred Hochberg, Chairman and President
          C.J. Hall, EVP and Chief Risk Officer 

          Osvaldo Gratacos, Inspector General 

          Mike McCarthy, Deputy Inspector General 

          Angela Freyre, General Counsel 

          Kenneth Tinsley, SVP-Credit Management Group 

          James Cruse, SVP-Policy and Planning

          Jessica Farmer, VP-Project and Corporate Monitoring 

          Elizabeth M. Touomou, VP (Acting) Structured and Project Finance Division 

          James Mahoney, Jr., VP-Engineering & Environment 

          Inci Tonguch-Murray, Business Compliance Officer 





 Attachment: Inspection Report PNG LNG, OIG-INS-14-01, June 2014
                                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

                                                                                              Inspection Report PNG LNG
Executive Summary                                                                                          OIG-INS-14-01
                                                                                                              June 2014

Why We Did This Inspection                           What We Found
Ex-Im Bank has steadily increased its volume         The PNG LNG Project is a vertically-integrated Liquefied Natural Gas
of financings in support of U.S. jobs and
                                                     (“LNG”) project in Papua New Guinea (PNG). Project Sponsors include
exports with total FYE 2013 exposure
amounting to $113.8 billion of which $40.8           ExxonMobil and several global energy companies. Total project costs
billion is long term, structured and project         are estimated at (b) (4)          which includes a (b) (4)     cost
financing.                                           overrun compared to the original budget. Ex-Im Bank provides $3
                                                     billion in loan facilities with $576.9 million disbursed for the financing
Project financings are inherently more
                                                     of local goods and services originating in Papua New Guinea.
complex and dynamic compared to corporate
financings, introducing the need for a higher
level of due diligence, risk identification, risk    OIG’s inspection focused primarily on Ex-Im Bank’s performance and
mitigation, monitoring, and policy governance.       adherence to internal policies and procedures. The scope of our work
                                                     involved a thorough analysis of project documents, financial
Although PNG LNG may not necessarily be
                                                     projections, and industry best practices, as well as interviews with Ex-
representative of all Ex-Im Bank project
financings, it can provide guidance with respect     Im Bank staff and outside consultants.
to suggested improvements in Ex-Im Bank
policies, practices and procedures, consistent       In the aggregate, our inspection found that the PNG LNG transaction
with industry best practices, OMB and GAO.           was well structured and properly documented with Ex-Im Bank
                                                     confident of full repayment. However, with the benefit of hindsight,
What We Recommend                                    certain internal practices and procedures can be improved to ensure
1.   Improve Ex-Im Bank’s CRTI process by (a)        compliance with Ex-Im Bank’s polices and to better protect Ex-Im
     using an enhanced risk based approach to        Bank from potential risks. For example, we observed that the overall
     determine the level of due diligence and a      level of character, reputational and integrity due diligence conducted
     plan based on the vulnerable areas of           for this transaction could have been more comprehensive to protect
     CRTI; (b) broadening the data bases and         Ex-Im Bank from potential fraud and reputational risks. It did not fully
     search procedures; and (c) regularly
                                                     vet the directors of the project owners, nor other relevant persons
     updating CRTI/KYC screening and analysis.
                                                     and entities connected with the project.

2.   Enhance the oversight of local cost             In addition, the OIG was unable to validate the origin of $576.9 million
     financing to ensure compliance with Ex-Im       of local costs financed by Ex-Im Bank. Of this amount, 70 percent was
     Bank Policies. Recommended measures
                                                     billed in non-local currencies. Although Ex-Im Bank relied on the
     include reserving the right to inspect the
     borrower’s books and records ,                  certifications of the Borrower, Ex-Im Bank’s credit documentation
     consideration of additional reporting           did not require sufficient information nor did it provide the right to
     requirements, and written policy                inspect the records of the Borrower to confirm compliance with Ex-
     clarification with respect to financing local   Im Bank’s Local Cost Policy.
     services.
                                                     OIG also found that although Ex-Im Bank took several proactive
3.   As part of the initial project due diligence,
     evaluate foreign exchange risk separately       measures to address potential cost overruns, it did not sufficiently
     with respect to construction cost.              analyze the foreign exchange risk during construction. The unhedged
                                                     exposure contributed $2.1 billion to the (b) (4)       cost overrun.
4.   Evaluate the adequacy of staffing for loan      Finally, the OIG notes that the current level of staffing assigned to
     monitoring in view of workloads and the
                                                     monitor complex structured transactions may not be sufficient to
     complexity of transactions, taking into
     consideration industry best practices in        ensure a proactive approach and effective coverage.
     order to assure a prudent, proactive
     approach to asset management and                     For additional information, contact the Office of the Inspector General
     credit risk.                                                     at (202) 565-3908 or visit www.exim.gov/oig.

                                       PNG LNG INSPECTION REPORT OIG-INS-14-01
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                             TABLE OF CONTENTS

Glossary of Terms                                                                3

Project Description                                                              5

Inspection Scope and Points of Inquiry                                          12

Principal Findings and Recommendations                                          13

Conclusions                                                                     34

Appenedix A: Management Responses                                               39

Appendix B: Local Cost Policy of Ex-Im Bank                                     44

Appendix C: Local Cost Invoice Descriptions                                     45

Appendix D: Inspection Rights of Export Credit Agencies                         46

Appendix E: CRTI Transaction Due Diligence Guidelines                           47

Appendix F: PNG LNG Transaction Time Line                                       49

Acknowledgements                                                                52





                               PNG LNG INSPECTIONS REPORT OIG-INS-14-01
                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                      LIST OF FIGURES AND TABLES

Table 1: LNG Off-Takers (Long Term Buyers)                                        8
Table 2: Sources and Uses of Funds (Before and After the Project Cost Overrun)    10
Table 3: Annual Number of Ex-Im Bank CRTI Search Requests                         17
Table 4: CRTI Screening Results for PNG LNG Transaction                           19
Table 5: EX-IM Bank Loan Disbursements for PNG Local Goods and Services           24
Table 6: Right of Inspection                                                      26
Table 7: Base Case Ratios Before and After Cost Overrun in 2013                   32


Figure 1: PNG LNG Project – Ownership & Project Structure (as of 12/2013)         7
Figure 2: LNG Price Forecast                                                      9
Figure 3 : PNG LNG Assigned BCL Risk Ratings                                      20
Figure 4: Exchange Rate Fluctuations                                              30




                                 PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                       2
                       EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


                                GLOSSARY OF TERMS

             TERM                                       DESCRIPTION
AMD                     The Asset Management Division of Ex-Im Bank
                        The Asset Management Division Operating Manual, March 2009, of Ex-Im
AMD Operating Manual    Bank. The Monitoring Manual describes the policies and procedures for
                        monitoring and managing loans
Board                   Ex-Im Bank Board of Directors
                        Memorandum submitted to the Ex-Im Bank Board of Directors as part of the
Board Memorandum
                        process for approving transaction applications
                        Papua New Guinea Liquefied Natural Gas Global LDC (Project borrower and
Borrower
                        obligor to the Ex-Im Bank Credit Agreement)
                        An agreement between the obligors and the senior credit parties setting forth
Common Terms
                        the terms and conditions of the credit that are common to all the senior credit
Agreement (CTA)
                        parties
                        ExxonMobil PNG Limited, a subsidiary of ExxonMobil and operator of the PNG
Company
                        LNG Project
                        A supplier of engineering, procurement and construction (EPC) goods and
Contractor
                        services to ExxonMobil PNG Limited, the operator of the PNG LNG Project
                        An Ex-Im Bank term meaning Character, Reputational and Transaction
CRTI
                        Integrity
                        An Ex-Im Bank CRTI due diligence analysis of companies and individuals to
CRTI Process            identify potential fraud, corruption and integrity risks associated with
                        companies and individuals
                        The Direct Loan Credit Agreement between the Borrower and Ex-Im Bank
Credit Agreement
                        dated December 15, 2009
CTA                     PNG LNG Project Common Terms Agreement
ECA                     Export Credit Agency
                        Engineering, Procurement and Construction, often used in conjunction with
EPC
                        “EPC Contract” or “Contractor”
Ex-Im Bank              The Export Import Bank of the United States
Esso Highlands, Ltd.    Former name of ExxonMobil PNG Limited
ExxonMobil              Exxon Mobil Corporation
                        The U.S. Government Accountability Office, the audit, evaluation, and
GAO
                        investigative arm of the United States Congress


                         PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                          3
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

          TERM                                                DESCRIPTION
IE                           Independent Engineer
Kina or PGK                  The local currency of Papua New Guinea
                             KYC is a term used in conjunction with transaction due diligence with respect
KYC (Know Your Customer)     to integrity, corruption and bribery risk in accordance with a set of Ex-Im Bank
                             policy guidelines dated January 10, 2008

LNG                          Liquefied Natural Gas
                             Ex-Im Bank financing for goods and services that originate and/or are
Local Cost Financing
                             manufactured in the Project’s host country
                             Millions of tonnes annually (used in describing LNG processing capacity of the
mtpa
                             PNG LNG Project)
PNG                          Papua New Guinea
OIG                          Office of the Inspector General, Ex-Im Bank
                             Agreements to sell the Project’s output of LNG, also referred to as SPAs, or
Offtake Agreements
                             Sales Purchase Agreements
OMB                          The Office of Management and Budget of the U.S. Government
                             ExxonMobil PNG Limited, an ExxonMobil subsidiary, the operator of the
Operator/Company
                             Project
                             A developing country of 7.2 million people, occupying the eastern half of the
Papua New Guinea (PNG)       island of New Guinea including the island of Bougainville, Papua New Guinea is
                             located 100 miles north of Australia, having a GDP of USD 15.7 billion in 2012
                             An owner of the Borrower, Papua New Guinea Liquefied Natural Gas Global
Participant
                             LDC (Project borrower and obligor to the Ex-Im Bank Credit Agreement)
                             The Papua New Guinea Liquefied Natural Gas Project in Papua New Guinea,
PNG LNG Project (Project)
                             the Lead Sponsor of which is ExxonMobil
                             An owner of the Project entities that have the rights and ownership interests
Sponsor                      in the PNG LNG Project. The Sponsors are Exxon Mobil ; Oil Search Limited;
                             Santos Limited; Nippon Oil and JPP Company; and the State of PNG and MRDC
                             (a PNG government owned corporation)
                             Additional senior debt (b) (4)
Supplemental Debt

                             World-Check is based in London and maintains a database of Politically
World-Check                  Exposed Persons (PEPs), heightened risk individuals & organizations for the
                             purpose of identifying & managing financial, regulatory and reputational risks




                              PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                4
                                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


PROJECT DESCRIPTION
Introduction
The PNG LNG Project (the “Project”) is a vertically-integrated Liquefied Natural Gas (“LNG”) project in Papua
New Guinea, consisting of gas fields in the highlands, an onshore and offshore pipeline of over 400 miles, a gas
liquefaction plant on the coast, marine export facilities and in-country infrastructure to include roads and
bridges. Construction started in 2010 and is scheduled for completion in 2015. The current estimated Project
cost is (b) (4)        .
When completed, the Project will be capable of producing up to 6.9 million metric tonnes1 per annum
(“mtpa”) of LNG and will generate annual revenue of approximately (b) (4)       , which equates to(b) of the
2012 GDP of Papua New Guinea. Exxon Mobil Corporation (ExxonMobil) is the lead sponsor and a principal
owner of the Project with a 32.9% interest. ExxonMobil PNG, Ltd., an ExxonMobil subsidiary, is the operator
(the “Operator”) of the Project pursuant to an ownership agreement between the four other Project owners.
The engineering, procurement and construction (“EPC”) firms building the Project are global firms from
Australia, Italy, France and Japan.
In December of 2009, Ex-Im Bank extended a $3 billion, 17.5 year financing to the Project, consisting of an US
$2.2 billion direct loan and an $800 million guaranteed bank loan.


Project Finance
Project finance is the long-term financing of infrastructure and industrial projects based upon the projected
cash flows of the project rather than the balance sheets of its sponsors. The project’s legal and economic
structures are defined by an interlocking, interdependent series of related contracts to include but not limited
to construction, ownership, operation, maintenance, fuel supply, management, loan, revenue (“off-take”), and
transportation.
A project financing structure typically involves a number of equity investors, known as ‘sponsors’, as well as a
syndicate of lenders such as banks and export credit agencies that provide loans for the construction of the
project. Project finance loans are typically with limited or non-recourse during construction. During the
construction period, in some projects, there may be recourse to a completion guarantee. Once the project is
in commercial operation and construction is completed, the loans are typically re-paid entirely from project
cash flow, rather than from the general assets or creditworthiness of the project sponsors. The project lenders
are given a lien on all of these assets and are able to assume control of a project if the project company has
difficulties complying with the loan terms.
Generally, a special purpose entity for each project is established, thereby shielding the other assets owned by
a project sponsor from the detrimental effects of a project failure. As a special purpose entity, the project
company has no assets other than the project.

 1
     Tonne is a metric system unit of mass equal to 1,000 kilograms (2,204.6 pounds). Production based on current 2013 financial 

       projections.





                                       PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                                     5
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

Risk identification and allocation are key components of project finance. A project may be subject to a number
of contractual, market, technical, environmental, economic and political risks, particularly in developing
countries and emerging markets.
A financial model is an important tool to assess, identify, and evaluate the economic feasibility, risks and
returns of a project. The financial models are used by lenders and rating agencies alike to determine
creditworthiness and risk. A key metric is the debt service coverage ratio, the ratio of project cash flow to debt
service (principal and interest). Although no one metric is conclusive, the debt service coverage ratio is critical
and used by Moody’s, Standard and Poor’s and Fitch in determining ratings. In addition, the project may
default if the ratio is less than one if additional funds in the debt service reserve account are not available
and/or if there is no further equity infusion.
In summary, project financings are more complicated than alternative, traditional financing methods. As such,
project financings require a high level of due diligence, structuring and proactive monitoring to minimize risk
and assure repayment. The financial model is an important tool in determining credit worthiness and risk.


Project Background
(b) (4)




On December 3, 2009, Ex-Im Bank’s Board approved $3.0 billion in credit facilities, consisting of a $2.2 billion
direct loan and an $800 million guaranteed loan. Proceeds were used to finance over $2.4 billion in export of
U.S. goods and services, including capitalized interest during construction, and $578.9 million for local goods
and services originated and manufactured in Papua New Guinea.
(b) (4)




Project Structure, Shareholders and Sponsors
The Project is a joint venture, the direct and several owners of which are referred to as “Participants” and the
ultimate parent entities being “Sponsors.” (b) (4)

                                                 ExxonMobil PNG Ltd, a subsidiary of ExxonMobil, is the
Operator and responsible for coordinating all aspects of the Project. (b) (4)




                                 PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                   6
                      EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

(b) (4)




     Figure 1: PNG LNG Project – Ownership & Project Structure (as of 12/2013)
                       (Confidential and Proprietary Information)

    (b) (4)




                        PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                 7
                                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

Financial Closing and Disbursements
Financial closing for the Ex-Im Bank credit facilities occurred on December 15, 2009, and the first
disbursement occurred on March 30, 2010. Total usage as of December 31, 2013, under the Ex-Im Bank
facilities was $2.1 billion, of which $576.9 million was disbursed for local goods and services in Papua New
Guinea. (b) (4)



Project Revenue
(b) (4)




                              Table 1: LNG Off-Takers (Long Term Buyers)
                                                                                                 (b) (4)
            Company                                                                                (b)
            Osaka Gas Co. Ltd. (a major Japanese gas utility)
            UNIPEC (China International United Petroleum & Chemicals Co., Ltd.)
            CPC Corporation (a state owned gas and oil company in Taiwan)
            TEPCO (The Tokyo Electric Power Company)
            Total
                 Source: PNG LNG Project documentation


Global Demand and Supply for LNG
Both global demand and supply for LNG are increasing at a high rate. Standard & Poor’s Ratings Services
expects natural gas consumption to grow over the longer term, particularly in Asia, the region of PNG LNG’s
off-takers. For example, Japan currently imports some 30% of global LNG production given its recent
shutdowns of nuclear reactors 2 and its longer shift in energy policy. With tight LNG supplies and the forecast
for demand outpacing new liquefaction capacity until at least 2014, Standard & Poor’s anticipates a positive

  2 Reuters: Japan's 2013 LNG imports hit record high on nuclear woes (Jan 27, 2014); For more information, see
     http://www.reuters.com/article/2014/01/27/energy-japan-mof-idUSL3N0L103N20140127




                                      PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                  8
                                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

outlook for LNG producers in the near term. Moreover, LNG Producers are likely to maintain favorable pricing
for the next few years, both in long-term contracts and spot pricing.
Currently, there are factors that may increase supply levels such as new LNG capacity in Australia (seven
projects underway), the Middle East, Africa, the U.S., and the development of vast unconventional gas
reserves elsewhere in the world, particularly shale gas. These conditions may affect future LNG prices or force
changes to current long-term, oil-indexed offtake contractual conventions.3 In addition, the spot market
currently represents 25% of global LNG traded volumes. Should this proportion grow materially, prices could
come under pressure.4 This view is shared by the Economist Intelligence Unit as shown in the following
forecast of LNG prices in Figure 2 below.




                                           Figure 2: LNG Price Forecast
                                             (US$/million Btu, Japan)
                            $17
                            $16
                            $15
                            $14
                            $13
                            $12
                            $11
                            $10
                                   2011 2012 2013 2014 2015 2016 2017 2018
                                   Source: Economist Intelligence Unit, January 16, 2014




 3
     S&P: LNG price convergence in the long term (Dec 6, 2012); For more information, see
       http://www.macrobusiness.com.au/2012/12/sp-lng-price-convergence-in-the-long-term/
 4 The price forecast represents the interaction of demand and supply. It is the price that clears the market.




                                      PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                 9
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

Project Cost Overruns and Factors Contributing to the Overrun
In November of 2012, ExxonMobil announced that the PNG LNG Project would incur a major cost overrun. In
early December of 2012, Ex-Im Bank staff from AMD and the Engineering and Environmental Division
conducted a seven day site visit to the PNG LNG project facilities and attended meetings with Exxon Mobil and
the lenders, where ExxonMobil provided a description of the cost overruns. (b) (4)




Table 2: Sources and Uses of Funds (Before and After the Project Cost Overrun)
                              (Confidential & Proprietary Information)

          (b) (4)




                               PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                           10
                                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

Other Project Risks

Apart from construction cost overruns, the PNG LNG transaction faces additional risks:
x Crude Oil Prices: (b) (4)

x	 Contract Stability:
                                                                                          (b) (4)




x	 Interest Rate Volatility:                                       (b) (4)




x	 Strength of Sponsors: (b) (4)




x	 Country Risk: The PNG government recently nationalized the Rio Tinto mine and is considering legislation
   for greater state control of the extractive industries sector, (b) (4)

x	 Character and Reputational Risks: Transparency International currently ranks PNG as 144 on a scale of 177
   in its Corruption Perceptions index with 177 being the most corrupt, indicating a high risk of corruption. 6
   In addition, the PNG government faces serious governance-related issues regarding continuing disputes
   over land rights and the distribution of funds under the PNG LNG Benefits Sharing Agreement. 7



 (b) (4)




 6
      Transparency International, Data and Research (02-04-2014); For more information, see
        http://www.transparency.org/country#PNG
7
     “Locals in Hela want more commitment from PNG govt.,” Radio New Zealand International, May 13, 2013, see
        http://www.radionz.co.nz/international/pacific-news/212146/locals-in-hela-want-more-commitment-from-png-govt
        “PNG gas landowners won't be identified before first cargo says Minister,” ABC Radio Australia, May 8, 2014, see
        http://www.radioaustralia.net.au/international/radio/program/pacific-beat/png-gas-landowners-wont-be-identified-before-



                                       PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                                  11
                                EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


Inspection Scope and Points of Inquiry
OIG’s inspection seeks to assess the level of due diligence, Ex-Im policy compliance, risk assessment, risk
mitigation and portfolio monitoring performed by Ex-Im Bank given its $3 billion commitment, the 17.5 year
term of the transaction, the complexity of the PNG LNG project financing, and the non-recourse nature of
repayment once construction is completed.
A combination of quantitative and qualitative techniques was employed by the OIG’s Office of Inspection and
Evaluation (OIE) as part of its review. These included (1) a review of the Project’s legal documents, internal Ex-
Im Bank reports and correspondence related to the transaction; (2) interviews of Ex-Im Bank staff including
representatives from Structured Finance, Asset Management Division, Engineering and Environmental
Division, Credit Policy, and Office of the General Counsel; (3) analysis of the PNG LNG financial statements,
financial projections, disbursement requests, invoices and payment history; and (4) a review of public and
open source documents, press releases and network analysis. Finally, several points of inquiry directed our
focus and helped guide our Inspection:


       POINT OF INQUIRY 1: Did Ex-Im Bank perform the CRTI/KYC Transaction Due Diligence in
       accordance with its current policies and procedures? Are current policies and procedures
       sufficiently comprehensive to protect Ex-Im Bank from potential waste, fraud, abuse and
       reputational risk issues?
       POINT OF INQUIRY 2: Are Ex-Im Bank’s practices with respect to Local Cost loan disbursements of
       $576.9 million in Papua New Guinea being implemented and managed in accordance with Ex-Im
       Bank Policy and Ex-Im Bank’s statutory mission “to increase U.S. employment through the export
       of goods and services”?
       POINT OF INQUIRY 3: Did Ex-Im Bank conduct sufficient credit due diligence and monitoring of the
       key project risks, parties involved, exposures, and red flags in accordance with Ex-Im Bank policies
       and project finance best practices? Were the relevant risks identified, evaluated, and mitigated
       accordingly?


The OIG conducted this inspection during FY 2013/2014 in accordance with the 2012 Quality Standards for
Inspection and Evaluation as defined by The Council of Inspectors General on Integrity and Efficiency (CIGIE).
Those standards require that we plan and perform the evaluation to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our evaluation objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based on our
objectives.




    first-cargo-says-minister/1307726; “Landowner: Parties failed to honour LNG commitments,” PNG Post-Courier (Australia), 1
    Edition, Section: Pg. 14, February 24, 2014. Source: LexisNexis



                                    PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                                12
                                     EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


PRINCIPAL FINDINGS AND RECOMMENDATIONS

In writing this report, OIG recognizes that our findings and recommendations primarily relate to the PNG LNG
project financing, and may not necessarily be generalized to the broader universe of Ex-Im Bank transactions.
Our approach is to review transactions from a lessons learned perspective and to help identify potential
systemic improvements in Ex-Im Bank’s policies and procedures. The report is guided by the three Points of
Inquiry listed above. For each point, OIG provides applicable criteria based on Ex-Im Bank’s policies and
procedures, market best practices, peer entities, as well as rating agent criteria. The report continues with
OIG’s findings and attendant recommendations to management.
We note that the Project is in compliance with Ex-Im Bank’s credit agreements. The Project is more than 90%
complete. In April of 2014 ExxonMobil reported that the Project started producing LNG from its first
liquefaction facility ahead of schedule. ExxonMobil plans to complete construction of its second liquefaction
facility in 2015. OIG found the Project to be generally well structured and well documented with a strong lead
sponsor, ExxonMobil.


Point of Inquiry 1: Did Ex-Im Bank perform the CRTI/KYC Transaction Due Diligence in
accordance with its current policies and procedures? Are current policies and procedures
sufficiently comprehensive to protect Ex-Im Bank from potential waste, fraud, abuse and
reputational risk issues?


Applicable Standards
          OIG reviewed various Applicable Standards and focused on the following: (1) Ex-Im Bank’s CRTI policies
          as outlined in Ex-Im Bank’s Loan Guarantee and Insurance Manual, 2009-2013 (“Loan Manual”),
          Chapter 24, Credit Review and Compliance Division; (2) “Transaction Due Diligence Best Practices8,”
          Export-Import Bank of the U.S., January 10, 2008; (3) Ex-Im Bank’s CRTI Training Presentation, June
          2013; (4) The US Foreign Corrupt Practices Act of 1977 (“FCPA”); 9 (5) the OECD Convention on
          Combating Bribery; 10and (6) best practices as observed by other multilateral financial agencies.
          U.S. and OECD Anti-Corruption Frameworks
          Anti-corruption diligence is an important component of transactional due diligence.11 Regulators have

 8
     The CRTI / KYC Transaction Due Diligence is a process to identify potential debarment, fraud, corruption, bribery, and integrity
       risks associated with companies and individuals.
 9
     For more information see http://www.justice.gov/criminal/fraud/fcpa/
 10
      For more information see http://www.oecd.org/corruption/oecdantibriberyconvention.htm
 11
      Skadden, “Anti-Corruption Due Diligence in Corporate Transactions: Implementing a Risk-Based Approach”, February 2013; For
       more information, see http://www.skadden.com/insights/anti-corruption-due-diligence-corporate-transactions-implementing-
       risk-based-approach-anti-




                                        PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                                        13
                                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

         endorsed a risk-based approach, focusing on those countries, entities and names that potentially
         represent higher levels of perceived risk.
         The US Foreign Corrupt Practices Act of 1977 (“FCPA”) was enacted for the purpose of making it
         unlawful for certain classes of persons and entities to make payments to foreign government officials
         to assist in obtaining or retaining business. The OECD Anti-Bribery Convention establishes legally-
         binding standards to criminalize bribery of foreign public officials in international business transactions
         and provides for a host of related measures that make this effective. Under both FCPA and OECD, the
         bribery of foreign officials is prohibited, either directly or through third parties.12 The U.S. Department
         of Justice is charged with the criminal enforcement of the FCPA’s provisions.
         In addition, the US Department of Justice and Department of Commerce have jointly provided
         guidance on corrupt third party payments: “To avoid being held liable for corrupt third party payments,
         US companies are encouraged to exercise due diligence and take all necessary precautions to ensure
         that they have formed a business relationship with reputable and qualified partners and
         representatives.”13 Failure to adequately assess clients, agents and business partners, and to know
         how they operate, can expose organizations to reputational risk, as well as monetary losses and
         criminal liability.
         Ex-Im Bank CRTI/KYC Transaction Due Diligence
         Ex-Im Bank’s policies related to fraud and corruption prevention are outlined in several core
         documents including Ex-Im Bank’s “Transaction Due Diligence Best Practices”14 and Character
         Reputational & Transaction Integrity (“CRTI”) procedures as outlined in Chapter 24 of its Loan
         Manual.15 The potential for fraud and corruption is recognized as a key concern as it may result in
         significant monetary loss to the transaction participants and undermine Ex-Im Bank’s institutional
         integrity and reputation.
         Ex-Im Bank policy prescribes a two-step approach to CRTI due diligence. Step one provides that all
         relevant parties to the transaction are to be vetted, including the foreign buyer, borrower, project
         sponsors, off-takers, end-users, guarantors, and principal owners of each of these entities. Step two
         assesses CRTI risk indicators to determine if the transaction represents standard or elevated CRTI risk.
         As outlined in Appendix E, step two CRTI due diligence involves a number of additional possible due
         diligence measures. Finally, Ex-Im Bank cooperates with law enforcement authorities, foreign and

12
     Under certain circumstances, it is considered unlawful to make a payment to an intermediary “knowing “that all or part of the
      payment will be used as a bribe to a foreign official. “The US Congressional Record accompanying the statues states which
      indicate “conscious disregards” and “wilful blindness” may also constitute “knowledge.” For more information, see FCPA web
      site (http://www.justice.gov/criminal/fraud/fcpa/), OECD web site (http://www.oecd.org/corruption/)
13
     International Association of Oil & Gas Producers (“OGP”), “Guidelines on Reputational Due Diligence”, 2004; For more
      information, see http://www.ogp.org.uk/publications/management-committee/guidelines-on-reputational-due-diligence/
14
     Transaction Due Diligence Best Practices, Ex-Im Bank, January 10, 2008; For more information, see
      http://www.exim.gov/generalbankpolicies/upload/Due-Diligence-Guidelines-1.pdf
15
     Chapter 24, Loan Guarantee and Insurance Manual, January 2013; For more information, see
      http://eximnet.bankhq.exim.gov/manuals/credit/indexcm.html




                                      PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                                     14
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

      domestic, including the OIG, and will refer to such authorities on fraud or corruption allegations that
      Ex-Im Bank deems appropriate.

      CRTI Due Diligence Best Practices
      OIG conducted interviews with several multilateral agencies including the Inter-American Development
      Bank (IADB), the European Bank for Reconstruction and Development (EBRD) and the International
      Finance Corporation (IFC). OIG has confirmed that these institutions employ a broad and in-depth CRTI
      process at transaction inception. The results are used to guide further, on-going due diligence efforts,
      credit structuring, documentation, and asset monitoring. In addition, transactions typically require the
      sign off from an independent “Office of Integrity” that certifies satisfactory completion of the due
      diligence efforts.
      Depending on the nature of the perceived risks, these institutions will employ an array of standard
      checks and enhanced due diligence techniques:
         x	 The use of a large number of data bases including (although not limited to) World-Check.
         x	 Comprehensive web-screening for Politically Exposed Persons (PEPs) and other reputational
            and integrity issues.
         x	 The use of vertical and affiliated-entity relationship analysis of a transaction participant to
            “pierce the ownership veil” of transaction parties including individuals, sponsors, EPC
            contractors, major vendors, local cost providers etc. The objective is to identify non-transparent
            ownership and relational CRTI risks.
         x	 Interviews with local agents and/or embassy staff in the host country.
         x	 Cross checks and exchange of information with other government agencies, multilaterals, etc.
      In addition to CRTI due diligence, several multilateral agencies have an independent accountability
      mechanism to address potential sociological and environmental impacts to the local community. These
      mechanisms include:
         x	 Addressing complaints by affected people; seeking to resolve problems with bank staff.
         x	 Reviewing compliance where complainant may seek an independent review of the Bank’s
            project.
         x	 Providing advice to management on policies and procedures.




Finding 1: CRTI procedures for PNG LNG transaction were not sufficiently implemented,
developed, and systematically applied to adequately protect Ex-Im Bank from potential
fraud, reputational and integrity risks.




                               PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                15
                                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

         The Directors and Key Officers of Relevant Transaction Parties Were Not Vetted
         OIG observed that the CRTI screening request of July 2009 included the project sponsors, owners, and
         certain participants, but did not include the names of any individuals, such as directors and key officers
         of project participants. All of this information was available to Ex-Im Bank prior to the first
         disbursement in March of 2010.16 The next CRTI analysis took place in 2011 and covered the EPC
         contractors and proposed local, in-country suppliers, but not the names of directors or signatories to
         the PNG LNG documentation. OIG has confirmed that these names were not vetted by Ex-Im Bank.
         OIG notes that the loan monitoring policy of Ex-Im Bank does not require CRTI analysis and screening
         on a periodic basis after initial due diligence. For example, Ex-Im Bank’s AMD Operating Manual:
         Functions, Resources, Goal and Objectives, Employee Standards does not reference CRTI due diligence
         and responsibilities, although loan monitoring policy does include the requirement for CRTI screening
         of new transaction parties which AMD becomes aware of through transaction documentation
         amendment, waiver and consent requests. Yet, CRTI events, circumstances and participants change
         throughout the life of a transaction, particularly in a transaction such as PNG LNG that spans 17.5
         years, exposing Ex-Im Bank to reputational risk over a long period of time.


         Current CRTI Screening May Not Place Sufficient Emphasis on Individuals
         Although individuals and not organizations often present the highest level of character and
         reputational risk, 17 OIG could not find any record of individual names submitted for screening in
         connection with the PNG LNG Transaction from 2009 through the date of this report. Separately, OIG
         note that the number of company searches significantly outweighs the number of personal names
         searched for CRTI Screening, suggesting that additional emphasis could be placed on screening
         individuals for CRTI purposes.




16
     OIG noted that Ex-Im Bank had the names of all the contractors and key participants as well as the right to receive the names,
      nationalities, dates of birth and residential addresses of each owner’s directors that were directly involved with the PNG LNG
      transaction, but these names were not vetted at the time; Common Terms Agreement, Section 5.1, Schedule S: Know Your
      Customer Requirements, December 15, 2009
17
     For more information see KPMG’s Analysis of Third-Party Integrity Risks Report available at
      http://www.kpmg.com/Global/en/IssuesAndInsights/ArticlesPublications/Documents/astrus-insights.pdf




                                       PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                                       16
                                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

                        Table 3: Annual Number of Ex-Im Bank CRTI Search Requests
                            Group                    Total          Company Names            Personal Names         Total Searches
                                                   Requests            Searched                 Searched
               Small Business                           1,315                 15,903                    1,874                 17,777
               Export Finance                           1,143                  7,664                    2,206                  9,870
               CFO                                        100                    346                      190                    536
               Board                                       12                    166                       32                    198
               Credit Management Group                     14                    118                        7                    125
               General Counsel                              2                      2                        2                      4
                                                        2,586                 24,199                    4,311                 28,510
              Source: Ex-Im Bank’s Character, Reputation and Transaction Integrity (CRTI) Training June, 2013



              Incomplete CRTI Due Diligence Despite the High Level of Industry Sector Risk and
              Country Risk
              (b) (5)




              Transparency International ranked Papua New Guinea as 2.1 on a scale of 1-10 with 1 as the most
              corrupt category and 10 the least corrupt category19, indicating a high risk of corruption. Finally, rating
              agencies such as Moody’s, S&P as well international periodicals such as the Economist also indicated
              PNG as a country of high risk of corruption. (b) (5), (b) (7)(E)




(b) (5)




19
          The TI Index scores 180 countries and territories on a scale from 1 (highly corrupt) to 10 (no corruption); For more information,
           see http://archive.transparency.org/policy_research/surveys_indices/cpi/2009/cpi_2009_table



                                            PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                                          17
                                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

                         (b) (5), (b) (7)(E)




                      Current CRTI Screening Fails to Identify Known Risks of Corruption and Significant
                      Governance Issues
                      OIG conducted a preliminary test to assess the effectiveness of the standard CRTI process currently
                      utilized by Ex-Im Bank. As part of its review, OIG submitted for CRTI analysis the names of two Project
                      contractors that had been charged with FCPA violations in the past as well as the principals of the
                      leading Project shareholders. The objective of the procedure was to compare the results obtained from
                      the standard CRTI check with the results obtained by OIG, using in depth screening of publicly available
                      data sources.
                      As summarized in Table 4 below, CRTI screening requests to the Ex-Im Library resulted in no findings,
                      or “No Match,” for either the Project contractors or the principals submitted in 2013. In contrast, OIG’s
                      open sourced internet search revealed several significant risk factors that were publicly known at the
                      time, including (b) (6)

                      In addition, OIG identified a number of publicly available articles citing ongoing violent disputes
                      between MRDC and local farmers, and broader governance issues related to widespread allegations of
                      corruption related to the alleged mismanagement of landowner’s investments.22
                  (b) (6)




                      PNG’s Oil & Gas Act of 1998 requires that the fiscal benefits from its oil and gas projects be widely
                      distributed to affected peoples through the allocation of Benefits Sharing Agreements (“BSAs”) as a
                      condition to granting licenses. In the case of PNG-LNG, the BSAs were to be executed or issued before
                      financial closing. 24 However, according to a report published in December 2009 by Jubilee Australia, an

(b) (5), (b) (7)(E)




(b) (4), (b) (7)(E)




22
          “PM’s challenge to fight corruption starts at MRDC“ See http://ramumine.wordpress.com/2011/09/26/pms-challenge-to-fight-
           corruption-starts-at-mrdc/
(b) (6)




24
          Conditions Precedent: 5.1(e)(vi) each BSA, each of which shall be in full force and effect.



                                                 PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                                 18
                                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

         Australian NGO, in-fighting and disputes among members of the group meant that many Project-
         affected areas struggled to sign before the deadline . “Just days before the deadline was reached, the
         Government threatened to unilaterally impose its own terms on Project-affected areas that would not
         negotiate and sign. This threat was effective in bringing most of the struggling groups to agreement.”25
         A subsequent report by Human Rights Watch in 2012 stated, “Disputes between local landowners and
         LNG contractors have been common since the project was sanctioned in 2009, and unresolved disputes
         over compensation for landowners, outstanding business development grants, and inadequate
         benefits for employees continue to generate protests and occasional violence. In August [2011] local
         villagers attacked two employees at the LNG site in Komo, a proposed airfield, forcing Exxon Mobile to
         temporarily halt operations.” 26 In addition, although enhanced due diligence was done on two PNG
         LNG contractors and documented in the project file, the CRTI screening process performed by Ex-Im
         Bank’s Library did not result in any negative findings for these entities.



                     Table 4: CRTI Screening Results for PNG LNG Transaction
       CRTI screening requests                                                             Library CRTI Screening
                                             Open Source Web Search Performed by OIG
         submitted by OIG                                                                          Results
      (b) (4), (b) (6)




         Source: Column Library Search from Library results as requested by OIG in 2013




25
     "Pipe Dreams"; Report by Jubilee Australia, Published December 2009, Pg. 32. See
      http://www.jubileeaustralia.org/page/work/pipe-dreams-report
26
     World Report 2012: Human Rights Watch. Jan. 2012 See Pg. 2.
     http://www.hrw.org/sites/default/files/related_material/papuang_2012.pdf




                                      PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                19
                                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

         (b) (4), (b) (5)




                               Figure 3 : PNG LNG Assigned BCL Risk Ratings
                                           (Confidential & Proprietary Information)

                 (b) (4), (b) (5)




         CRTI procedures of Ex-Im Bank do not require the risk assessment process to be
         conducted prior to the CRTI screening of participants
         Applying the appropriate CRTI due diligence in accordance with the perceived level of risk is critical to a
         successful CRTI procedures. However, the CRTI procedures of Ex-Im Bank do not require the risk
         assessment process to be conducted prior to the CRTI screening of participants. The CRTI screening
         process is performed first at the inception of the transaction. Due diligence of CRTI risk is then
         evaluated throughout the underwriting process. Accordingly, it is not clear whether an upfront risk
         assessment plan is established that properly directs the subsequent CRTI screening process and due
         diligence.
         In accordance with the CRTI procedures, Ex-Im Bank staff evaluates each transaction according to the
         appropriate CRTI risk indicators. If it is determined that the transaction represents Standard 27 CRTI
         risk, the staff has responsibility for evaluating and mitigating the risks as may be necessary. If the


27
     CRTI risk indicator(s) exists but are appropriately mitigated. Loan Manual, Ch. 24.




                                        PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                  20
                                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

             transaction is determined to represent Elevated28 CRTI risk, Bank staff notifies the Office of General
             Counsel (OGC) and the Credit Review and Compliance Division (CRC) to evaluate, execute and
             document further actions as appropriate. 29
             However, Ex-Im Bank’s policy manuals do not provide written criteria to guide the action to be taken.
             Finally, in the case of PNG LNG, there was no evidence that an enhanced CRTI Risk Indicator Check List
             was ever filed pursuant Chapter 24 of the Loan Manual.


RECOMMENDATION 1
To strengthen the effectiveness and transparency of the CRTI/KYC due diligence, OIG recommends that Ex-Im
Bank review and evaluate its current CRTI policies and procedures, giving consideration to the following:
x        Enhance efficiency and effectiveness of the CRTI/KYC due diligence by implementing a risk-based
         assessment to determine the appropriate level of due diligence required for each transaction. On the basis
         of these results, develop an appropriate systematic plan to screen, mitigate and monitor CRTI risk,
         particularly in the critical pre-approval stage of a transaction.
x        Conduct enhanced, upfront internet web screening to include local in-country sources and media for
         Politically Exposed Persons (PEPs) and other potential reputational/integrity issues.
x        Employ vertical and affiliated relationship analysis to “pierce the ownership veil” to identify non-
         transparent and relational CRTI risks including owners, sponsors, EPC contractors, etc.
x        Expand the external databases and sources being used for CRTI screening beyond the 20 watch lists of
         World-Check currently being used.

x        Implement CRTI screening on all relevant transactional parties on a regular, periodic basis during asset
         monitoring subsequent to initial due diligence.

x        Develop a dialogue with multilateral financial institutions such as IFC to learn more about CRTI and KYC
         best practices.

While enhancing the Ex-Im Bank’s CRTI procedures cannot guarantee that improper conduct will not occur,
appropriate due diligence research will help reduce the potential misuse of financing involving fraud and
corruption that could result in monetary loss to the transaction participants as well as loss of creditability in
Ex-Im Bank’s programs and reputation.




    28
         CRTI risk indicator(s) exists but are not appropriately mitigated. Loan Manual, Ch. 24.
    29
         The elevated CRTI risk potential action steps for staff are listed in Appendix 4 in CRTI Procedures.




                                            PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                      21
                                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

Management Response

Management is currently reviewing and evaluating its current KYC/CRTI process, and expects to have this
completed by the end of this calendar year. Management agrees to take the OIG recommendations into
consideration. Due to budgetary and staffing constraints, the Bank will need to conduct a cost-benefit
analysis to determine the level of participant review which is both practical and feasible. The Bank has
already added another database to the CRTI screening process and will continue to evaluate other potential
databases for inclusion. The Bank notes that local in-country sources and media are often politically
motivated, therefore not the most accurate and reliable sources of information.


Evaluation of Management’s Response
Management’s proposed actions are responsive; therefore, the recommendation is resolved and will be
closed upon completion and verification of the proposed actions.


Point of Inquiry 2: Are Ex-Im Bank’s practices with respect to Local Cost loan disbursements
of $576.9 million in Papua New Guinea being implemented and managed in accordance with
Ex-Im Bank Policy and Ex-Im Bank’s statutory mission “to increase U.S. employment through
the export of goods and services”?


Applicable Standards
          OIG reviewed various relevant Applicable Standards and focused on the following: (1) Ex-Im Bank’s
          Local Cost Policy as stated on its web site30 and in its Loan, Guarantee and Insurance Manual, 2009 -
          2013 (“Loan Manual”) ; (2) Ex-Im Bank’s Policy Handbook,2009; (2) Executive Order 13520 - Reducing
          Improper Payments and Eliminating Waste in Federal Programs, November 23, 2009;31 (3) Ex-Im Bank’s
          Charter32 and (4) OECD guidelines as provided in the 2009 “Arrangement on Officially Supported Export
          Credits.”33
          In addition, OIG reviewed various Applicable Standards related to the reimbursement of Local Costs as
          outlined in Ex-Im Bank’s “Operations and Data Quality Division Manual,” March 2009 as well as the
          Utilization Procedures included in Annex B to the PNG LNG Credit Agreement. Complementing these
          resources, OIG interviewed Ex-Im Bank staff representing Engineering, Operations, Asset Management,
          Policy, and the Office of General Counsel.


 30
      Available at http://exim.gov/generalbankpolicies/localcost/
 31
      Available at http://www.whitehouse.gov/the-press-office/executive-order-reducing-improper-payments
 32
      http://exim.gov/about/whoweare/charterbylaws/upload/Updated_2012_EXIM_Charter_August_2012_Final.pdf
 33
      Available at http://www.oecd.org/tad/xcred/theexportcreditsarrangementtext.htm




                                       PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                             22
                                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL



         OECD Local Cost Guidelines
         Organisation for Economic Co-operation & Development (OECD) defines the Local Cost as “expenditure
         for goods and services in the buyer's country that are necessary either for executing the exporter's
         contract or completing the project of which the exporter's contract forms a part.”
         In accordance with the OECD guidelines, the OECD Participants may provide official support for local
         costs, provided that:
         x   Local cost support shall not exceed 30% of the export contract value.
         x	 Local cost support shall not be provided on terms more favorable/less restrictive than those agreed
            for the related exports.
         x	 Whenever local cost support exceeds 15% of the export contract value, such support shall be
            subject to prior notification, pursuant to Article 48, specifying the nature of the local costs being
            supported.
         Ex-Im Bank Local Cost Policy
         Ex-Im Bank policy34 permits the financing of up to 30% of the value of U.S exports for locally originated
         and/or manufactured goods and services in the host country. This support is in addition to the
         maximum support of 85 percent of the U.S. Contract Price. The local cost represents locally-originated
         and manufactured goods and services in support of long-term and medium-term U.S. export
         transactions. The Policy reflects the premise that some amount of local labor and raw materials are
         necessary to efficiently build or assemble the end product of the U.S. export.35
         In comparison to OECD guidelines, Ex-Im Bank’s Local Cost policy adds additional eligibility
         requirements for Local Cost financing. It requires that the expenditure for goods and services supplied
         from the buyer's country is:
             x    Beneficial to the project
             x    Certified by the Borrower
             x    Detailed in the Acquisition List
             x    Originated in the host country
         Ex-Im Bank also requires the Borrower certify that the local cost support was not used to cover
         products that could reasonably be purchased in the U.S.


34
     See Appendix B, Local Cost Policy , Ex-Im Bank’s website; For more information, see
      http://www.exim.gov/generalbankpolicies/localcost/
35
     2012 Competiveness Report , page 122; For more information, see
      http://www.exim.gov/about/library/reports/competitivenessreports/upload/US-Ex-Im-Bank-2012-Competitiveness-Report-to-
      Congress-Complete.pdf




                                      PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                         23
                                 EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL



           Loan Disbursements for Local Costs
           The following table shows the loan amounts disbursed for local goods and services by Ex-Im Bank, the
           invoicing entities, the billing currencies, and the total loans. Of the total loan amount approved ($578.9
           million), Ex-Im Bank funded $576.9 million, of which seventy percent (70%), or $403.8 million, was
           invoiced in (b) (4)                                          and the remainder (30%) in Kina, the local
           currency of Papua New Guinea. The invoicing entities were affiliates of international, foreign
           construction (EPC) contractors, registered to do business in Papua New Guinea, as shown in Table 5.




          Table 5: EX-IM Bank Loan Disbursements for PNG Local Goods and Services
                                       (Confidential & Proprietary Information)

(b) (4)




                                    PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                   24
                                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

Finding 2A: OIG was not able to validate compliance with Ex-Im Bank’s Local Cost Policy
due to insufficient information provided to Ex-Im Bank Pursuant to its Credit Agreement 36
              Insufficient Information to Validate Origin
              In discussions with Ex-Im Bank staff, OIG learned that Ex-Im Bank largely relies on the certifications of
              the Borrower to validate local cost compliances required in its Credit Agreement in lieu of requiring
              detailed information. OIG understands that this is the general procedure to reduce paperwork,
              promote efficiency in processing and to make best use of limited internal resources.
              In accordance with Ex-Im Bank’s Credit Agreement, the Borrower provided Ex-Im Bank with an initial
              Acquisition List on March 1, 2010, for Local Goods and Services and subsequent versions as the lists
              were modified. The lists showed the names and addresses of the local suppliers, a broad description of
              the goods and services and estimated cost. The lists were approved by Ex-Im Bank’s Engineering and
              Environment Division.
              These suppliers (referred to as “Contractors”) in turn reportedly entered into subcontracts with local
              entities to provide all or part of the local goods and services. The Borrower also provided Ex-Im Bank
              with another, separate list of potential, local cost subcontractors dated December 22, 2010, that was
              also reviewed and approved by Ex-Im Bank. However, invoices submitted to Ex-Im Bank for
              reimbursement did not identify the origin of the goods and services and their associated cost.
              Although in compliance with the Credit Agreement, the descriptions on the invoices submitted by the
              Contractors for reimbursement were generic without reference to origin and lacked details to confirm
              local sourcing. Examples of the descriptions are: (b) (4)



              Moreover, OIG noted that the entities submitting the invoices were affiliates of international EPC
              construction companies (contractors), with local addresses, and doing business in PNG as local
              companies registered in Papua New Guinea. Additionally, $403.8 million, or 70% of the invoices, were
              billed in a currency other than the currency of Papua New Guinea.


Finding 2B: Ex-Im Bank does not have the right to inspect and audit the books and records
to validate the origin of local goods and services financed by Ex-Im Bank.
              The Credit Agreement and Common Terms Agreement permit Ex-Im Bank the right to “reasonably
              request” information. The Common Terms Agreement also gives Ex-Im Bank the right to inspect the
              project site with limitations and receive copies of the project’s books and records in the Event of



 36
          In conducting this inquiry, OIG attempted to validate that the local goods and services were financed in compliance with its 

           policy as in effect in 2009, specifically whether these goods and services were of local origin. 

(b) (4)




                                            PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                                           25
                                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

          Default. Absent an Event of Default, Ex-Im Bank does not have the right to inspect and audit the
          relevant books and records to validate compliance with Local Cost Policy.
          In reviewing the credit agreements of the other ECAs, OIG learned that (b) (4)




                                                          Ex-Im Bank states that other ECAs may not have the
          same level of pre-disbursement due diligence as Ex-Im Bank and may as a result request the right to
          audit and spot check the borrower’s record after their loans have been disbursed. The following table
          shows the inspection and audit rights of Ex-Im Bank and the other ECAs in the PNG LNG financing.38


                                              Table 6: Right of Inspection
                                           (Confidential & Proprietary Information)

                                      Right of Inspection of the Export Credit Agencies
                ECA Lender

                Facility
                                    US·Exim
                                                EFIC (Australia) SACE S.P.A. (Italy) JBIC (Japan) NEXI (Japan) C-EximCExi(Chinma) .(Chi. na)
                                $ 3,000,000,000 $ 350,000,000 $ 900,000,000 $ 1,800,000,000 $950,000,000 $1,300,000,000
                (b) (4)




Finding 2C: Local cost eligibility criteria may not be applied consistently to goods and
services

          In discussions with the Policy and Planning Group of Ex-Im Bank, OIG was advised that Ex-Im Bank’s
          Local Cost Policy requires that both the goods and services originate and be incurred in the host
          country to be eligible for local cost financing.39 However, OIG was also advised that although goods
          need to be of local origin, services do not necessarily have to be. Services provided by individuals from
          outside of the host country, but employed by a locally registered firm, could also be eligible for

 38
      See Appendix D, Inspection Rights of ECAs (Export Credit Agencies)
 39
      See Appendix B, Local Cost Policy , Ex-Im Bank’s website; For more information, see
       http://www.exim.gov/generalbankpolicies/localcost/




                                        PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                                               26
                                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

          financing. 40 .

          With respect to PNG LNG, Policy and Planning stated that if a locally registered entity (such as (b)
                                                                                                            (4)
                                      ) had entered into a local services contract, the services under the contract
          ((b) (4)                                      ) could be eligible for Ex-Im Local Cost support, since the
          services were contracted with a locally registered business entity and not directly with the (b) (4)
          providers.41 This practice appears to imply a two tier approach for eligibility, one for local goods and
          another for local services.42


RECOMMENDATION 2

To strengthen compliance with Ex-Im Bank Policies and to enhance transparency in the financing of local cost
goods and services, the OIG makes the following recommendations to Ex-Im Bank:
      x   Reserve the right of inspection and audit of the borrower’s books and records in Ex-Im Bank’s credit
          agreements, particularly for project financings. This right should be provided on an ongoing basis and
          not be restricted to the occurrence of an Event of Default.
      x   Require borrowers to maintain a set of verifiable records subject to audit and consider extending this
          inspection right to the records of construction contractors as applicable.
      x   Consider additional requirements to provide greater transparency and to facilitate validation of
          compliance, such as requiring the Borrower to provide, when requested, more descriptive information
          and details regarding local cost disbursements.
      x   Review and evaluate Local Cost Policy with respect to the origin of local services to explicitly state its
          criteria and requirements for funding such services in keeping with transparency, consistency, the
          statutory mandate to create U.S. jobs and defined business strategy.


Management Response
The Bank agrees to review and evaluate the current local cost policy. The Bank notes that Ex-Im conducts a
higher level of pre-disbursement due diligence to protect the taxpayers than other ECAs which may rely on
potential post-disbursement document reviews. Any changes to the Bank's credit agreements will need to be
evaluated by the Bank's business and legal divisions. The Bank will also evaluate the recommendations
regarding the required local cost information for transactions and determine what mechanism would be

 40
      Email from Policy and Planning August 28, 2013
 41
      Meeting with Policy and Planning, December 17, 2013
 42
      See Appendix B, Local Cost Policy , Ex-Im Bank’s website; For more information, see
       http://www.exim.gov/generalbankpolicies/localcost/




                                        PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                       27
                                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

practical and feasible, as well as legally sound, to validate the information the Bank currently receives
through the local cost certification process.
In addition, section 2(i) of the Bank’s 2012 Charter requires the Bank to "set due diligence standards for its
lender partners and participants " and "require all delegated lenders to implement 'Know your customer
practices.'" The Bank has taken into consideration prior Government Accountability Office (GAO) and OIG
recommendations in developing the Bank's current policy on "Know Your Customer Requirements and Due
Diligence Standards" (posted 5/22/14) which contains "Cooperation Requirements and Reservation of Rights."
As part of the cooperation requirement s, all participants in Ex-Im Bank transactions (defined as a lender in
direct privity with Ex-Im Bank, a borrower , a guarantor, a buyer, an exporter, an Ex-Im bank approved broker,
an assignee or Enhanced assignee, or an agent, broker , finder or representative for any of the foregoing) are
"expected to cooperate with all request s of Ex-Im Bank for documents and information related to any
transaction involving Ex-Im Bank which, in Ex-Im Bank's sole discretion, are necessary to review any
participant's due diligence process, underwriting, know your customer practices, documentation, funding and
operation of any and all Ex-Im Bank transactions, both before and after approval and consummation of a
transaction." The reservation of rights provides additional mechanisms for the Bank to review and make
determinations based on "know your customer" and due diligence practices.


Evaluation of Management’s Response
Management’s proposed actions are responsive; therefore, the recommendation is resolved and will be
closed upon completion and verification of the proposed actions.


Point of Inquiry 3: Did Ex-Im Bank conduct sufficient due diligence and monitoring of the key
project risks, parties involved, exposures, and red flags in accordance with Ex-Im Bank
policies and project finance best practices? Were the relevant risks identified, evaluated,
and mitigated accordingly?


Applicable Standards
          In conducting this inquiry, the OIG reviewed various Applicable Standards and focused on the
          following: (1) Ex-Im Bank’s analysis and due diligence of the risk factors as outlined in Ex-Im Bank’s
          Loan, Guarantee and Insurance Manual, 2009- 2013 (“Loan Manual”), Chapter 14.5 Risk Factors;
          Chapter 22, Post-Operative Monitoring; (2) Asset Management Division Operating Manual, March 009
          (“Monitoring Manual”); (3) guidance found in the rating criteria used by the principal credit rating
          agencies: Standard & Poor’s, Moody’s and Fitch Ratings43; and (4) industry best practices.

 43
      For more information see http://www.standardandpoors.com/ratings/criteria/en/us?filtername=Table, 

       https://www.moodys.com/researchandratings/research-type/home, 

       https://www.fitchratings.com/jsp/general/Research.faces?listingName=criteriaReport 





                                      PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                               28
                                   EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

         Ex-Im Bank Credit Policy - Project Financing
         Reflecting the complex, non-recourse nature of a project financing, Ex-Im Bank’s Loan Manual calls for
         a comprehensive analysis of all aspects of the project financing. Among the many risk factors that are
         commonly addressed are construction, market, country, transportation, sponsor, fuel and operation.
         Also carefully evaluated are the project’s plan of operations, financial projections and scenario, legal
         structure, and the background of the sponsor(s) and project management team. As outlined in Ex-Im
         Bank’s Loan Manual, Chapter 14.5.1 Risk Factors, a thorough review of all the major contracts and
         underlying project documents are required to include the Engineering Procurement and Construction
         (EPC) contracts.


         Ex-Im Bank Monitoring Policy
         The Monitoring Manual44 of Ex-Im Bank states that the mission of its Asset Management Division
         (AMD) is to proactively monitor portfolios so as to provide an early warning mechanism of potential
         loss situations. The Manual in particular states that the monitoring of project finance transactions
         during the construction period requires additional oversight.45 Additionally, the Manual requires the
         AMD officer to “review construction progress reports submitted by obligors whose projects are still in
         construction as well as engineering reports submitted by the IE (independent engineer). Ex-Im Bank
         follows a risk-based approach to monitoring credits where staff actively and continuously reviews
         transactions to help to ensure early identification of cost overrun risks.”46 The Monitoring Manual
         requires a similar level of professional, proactive monitoring during the commercial operation of a
         project. The Monitoring Manual requires the preparation of reports semi-annually on all actively
         monitored obligors and quarterly reports on all defaulted and/or impaired credits.
         Monitoring of the PNG LNG transaction, particularly during its construction, is time intensive. It
         involves site/client visits and the evaluation of updated financial projections as well as a constant flow
         of documents to include construction reports, future operational reports, financial statements,
         budgets, disbursement requests, amendments, waivers, country reports, environmental and social
         reports and others. Given that the repayment risk is non-recourse and solely dependent on cash flows
         after construction involving multiple risks and multiple parties, the transaction requires a high level of
         due diligence by a professional staff that is adequately resourced and trained in accordance with the
         Monitoring Manual.




44
     Asset Management Division Operating Manual, March 2009, pp 3, 15 and 24; For more information, see AMS ( Asset
      Management System)
45 Asset Management Division Operating Manual, March 2009, p. 29: “Monitoring project finance transactions during the
     construction period requires additional oversight on the part of the AMRG (AMD) officer. The asset under construction is
     generally the only source of cash flow that will be used to repay the loan.”
46
     “Portfolio Experience with Projects in the Construction Phase,” Ex-Im Bank, 10-24-2013




                                      PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                           29
                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

Finding 3A: Although Ex-Im Bank took a number of proactive, carefully-considered steps to
mitigate construction cost overruns through (b) (4)

                                                                , the foreign exchange (“FX”)
risk during construction was not separately addressed and sufficiently evaluated. In
retrospect, FX exposure accounted for $2.1 billion of a (b) (4)    project cost overrun.

      Ex-Im Bank management advised OIG that Ex-Im Bank viewed foreign exchange volatility to be one of
      several construction risks that in aggregate would be mitigated by the proactive measures taken
      above. The eventual foreign exchange losses of $2.1 billion were due to a mismatch of currencies in
      the construction contracts, namely the Australian Dollar and the Kina (currency of Papua New Guinea)
      versus the US dollar (Project’s functional currency). Both the Australian Dollar and Kina appreciated
      materially during the construction period from 2010 to 2013 as shown in Figure 4.




                                Figure 4: Exchange Rate Fluctuations

                       AUD/USD                                             KINA/USD




      Source: Oanda Corporation as of July 31, 2013


      The construction contracts were subject to comment, review and questions by Ex-Im Bank as a
      condition precedent to lending, and as such, the foreign exchange risk during construction could have
      been identified, measured, evaluated and mitigated by the Sponsors through hedging or other means.
      The OIG also found that the financial model did not include the foreign exchange exposure as a risk
      variable in estimating construction costs.


Finding 3B: Monitoring of Foreign Exchange Losses and Financial Projections was not
sufficiently proactive

                                  PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                            30
                                         EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

              (b) (4), (b) (5)




(b) (4)




48
          OIG noted that the Loan Officer monitoring the PNG LNG transaction has 15 active loans involving both large corporate and
           project financings. In contrast, KPMG noted in its 2013 report to Ex-Im Bank’s Audit Committee that the normal work load is 7
           to 10 structured financings per loan officer. This finding was based on a peer group survey of 19 financial institutions. In
           another 2013 report to Ex-Im Bank management, CC Pace stated that “Ex-Im Bank’s credit volume increased three-fold in the
           past five years, during which time Ex-Im Bank has maintained an essentially steady staffing level and has received very limited
           investment funding to replace or renew aging technology. This has resulted in significant strains to an overworked staff.”




                                            PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                                         31
                                  EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

             Revised Financial Projections indicate a reduction in Key Financial Ratios
             (b) (4)



             As indicated in Table 7, the FX losses and cost overruns resulted in a (b) (4)         decline in two
             key financial ratios compared with the original 2009 forecast. Although the decline in projected
             financial performance may not threaten the Project’s “reasonable assurance of repayment,” (b)
                                                       , the impact on the Project’s credit profile is not    (4)
                                                    49
             immaterial from a credit perspective. (b) (4), (b) (5)




                   Table 7: Base Case Ratios Before and After Cost Overrun in 2013
                                        (Confidential & Proprietary Information)
(b) (4)




   (b) (4)




                                     PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                     32
                            EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

RECOMMENDATION 3
  x	 In addition to completion guarantees, Ex-Im Bank should evaluate foreign exchange exposure
     during construction as a separate risk factor when mitigating construction cost overruns and
     depending on the potential magnitude of the foreign exchange risk, consider requiring the
     borrower to mitigate the exposure through hedging or other means as a condition of lending.
      Additionally, If deemed material, foreign exchange volatility should be included in the financial
      model as a relevant variable subject to stress testing and sensitivity analysis.
  x	 To assure a proactive management of credit risks and a timely evaluation of key documents to
      include financial projections, OIG recommends that Ex-Im Bank (1) review its staffing levels in its
      Asset Management Division to be in line with workloads, industry best practices, and ongoing
      requirements and (2) and consider assigning additional personnel, resources and training as
      necessary.


Management Response
As part of the Bank 's risk management framework, Ex-Im Bank staff, as well as technical and financial
advisors, conducted extensive due diligence regarding the construction period risk, including foreign
exchange risk, for this Project. The Bank appreciates OIG finding that Bank staff "took a number of
proactive, carefully-considered steps to mitigate construction cost overruns through completion
guarantees." A completion guarantee was determined to be an effective means to mitigate several types
of risk. In the PNG LNG project, staff relied on three structures to mitigate the cost ov errun risk: (i) the
negotiated Supplemental Debt cap, (ii) the completion guarantees and (iii) the Coordinated Development
and Operating Agreement (CDOA) among project sponsors to protect the lenders from cost overruns. The
Bank, in accordance with the OIG recommendation agrees to evaluate the foreign exchange exposure
during construction as a separate risk factor, and include foreign exchange volatility in the financial
model as deemed necessary.
Regarding the second part of this recommendation, the Bank continually reviews staffing levels in all areas,
and must work within budgetary and work space constraints for staffing issues. Since FY 2012, the Bank has
increased, by 45%, the monitoring staff for the Long Term Monitoring Group. The Bank's Audit Committee is
conducting a review with outside consultants to benchmark our staffing levels against peer institutions. Also,
the FY 2014 appropriations from the U.S. Congress provided for additional administrative funds enabling
management to allocate new staff resources in line with workloads, industry best practices, and ongoing
requirements.


Evaluation of Management’s Response
Management’s proposed actions are responsive; therefore, the recommendation is resolved and will be
closed upon completion and verification of the proposed actions.




                               PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                            33
                                EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


CONCLUSIONS 

The PNG LNG Project is a vertically-integrated Liquefied Natural Gas (“LNG”) project in Papua New Guinea
(PNG). Project Sponsors include ExxonMobil and several global energy companies. Total project costs are
estimated at (b) (4)      which includes a (b) (4)        construction cost overrun compared to the original
budget. Ex-Im Bank provides $3 billion in loan facilities with $576.9 million disbursed for the financing of local
goods and services originating in Papua New Guinea.
OIG’s inspection found that the PNG LNG transaction is a well-structured and supported by strong and
experienced sponsors. However, with the benefit of hindsight, OIG believes that certain Ex-Im Bank practices
can be strengthened to ensure compliance with Ex-Im Bank’s polices and to better protect Ex-Im Bank from
potential waste, fraud and abuse as well as character and reputational risks. For example, the OIG found no
evidence that Ex-Im Bank identified the country Papua of New Guinea and the industry sector of Oil & Gas as
high risk elements falling short of capturing critical information on key individuals and companies within the
transaction.
In addition, 70% of Ex-Im Bank’s local cost disbursements were invoiced in currencies other than the currency
of PNG. Based on current Ex-Im Bank requirements, OIG could not validate the origin of the local goods and
services and Ex-Im Bank does not have the right of inspection and audit unlike several other ECAs.
(b) (4)




The following provides a summary of the inspection’s Point of Inquiry, Findings, and Recommendations:


Point of Inquiry 1: Did Ex-Im Bank perform the CRTI/KYC Transaction Due Diligence in accordance with its
current policies and procedures? Are current policies and procedures sufficiently comprehensive to protect Ex-
Im Bank from potential waste, fraud, abuse and reputational risk issues?
          Finding 1: CRTI procedures for PNG LNG transaction were not sufficiently implemented, developed,
          and systematically applied to adequately protect Ex-Im Bank from potential fraud, reputational and
          integrity risks.
          Recommendation 1: To strengthen the effectiveness and transparency of the CRTI/KYC due diligence,
          OIG recommends that Ex-Im Bank review and evaluate its current CRTI policies and procedures, giving
          consideration among others to the following:
             x   Enhance efficiency and effectiveness of the CRTI/KYC due diligence by implementing a risk-
                 based assessment to determine the appropriate level of due diligence required for each
                 transaction. On the basis of these results, develop an appropriate systematic plan to screen,
                 mitigate and monitor CRTI risk, particularly in the critical pre-approval stage of a transaction.
             x   Conduct enhanced, upfront internet web screening to include local in-country sources and
                 media for Politically Exposed Persons (PEPs) and other potential reputational/integrity issues.

                                   PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                     34
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

           x   Employ vertical and affiliated relationship analysis to “pierce the ownership veil” to identify
               non-transparent and relational CRTI risks including owners, sponsors, EPC contractors, etc.
           x   Expand the external databases and sources being used for CRTI screening beyond the 20 watch
               lists of World-Check currently being used.
           x   Implement CRTI screening on all relevant transactional parties on a regular, periodic basis
               during asset monitoring subsequent to initial due diligence.
           x   Develop a dialogue with multilateral financial institutions such as IFC to learn more about CRTI
               and KYC best practices.

       While enhancing the Ex-Im Bank’s CRTI procedures cannot guarantee that improper conduct will not
       occur, appropriate due diligence research will help reduce the potential misuse of financing involving
       fraud and corruption that could result in monetary loss to the transaction participants as well as loss of
       credibility in Ex-Im Bank’s programs and reputation. Additionally, in certain circumstances, proof of
       having conducted appropriate due diligence research might be required in a court of law.


Management Response
Management is currently reviewing and evaluating its current KYC/CRTI process, and expects to have this
completed by the end of this calendar year. Management agrees to take the OIG recommendations into
consideration. Due to budgetary and staffing constraints, the Bank will need to conduct a cost-benefit analysis
to determine the level of participant review which is both practical and feasible. The Bank has already added
another database to the CRTI screening process and will continue to evaluate other potential databases for
inclusion. The Bank notes that local in-country sources and media are often politically motivated, therefore
not the most accurate and reliable sources of information.


Evaluation of Management’s Response
DĂŶĂŐĞŵĞŶƚ͛ƐƉƌŽƉŽƐĞĚĂĐƚŝŽŶƐĂƌĞƌĞƐƉŽŶƐŝǀĞ͖ƚŚĞƌĞĨŽƌĞ͕ƚŚĞƌĞĐŽŵŵĞŶĚĂƚŝŽŶŝƐƌĞƐŽůǀĞĚĂŶĚǁŝůůďĞ
ĐůŽƐĞĚƵƉŽŶĐŽŵƉůĞƚŝŽŶĂŶĚǀĞƌŝĨŝĐĂƚŝŽŶŽĨƚŚĞƉƌŽƉŽƐĞĚĂĐƚŝŽŶƐ͘


Point of Inquiry 2: Are Ex-Im Bank’s practices with respect to Local Cost loan disbursements of $576.9
million in Papua New Guinea being implemented and managed in accordance with Ex-Im Bank Policy and
Ex-Im Bank’s statutory mission “to increase U.S. employment through the export of goods and services”?
       Finding 2A: OIG was not able to validate compliance with Ex-Im Bank’s Local Cost Policies due to
       insufficient information provided to Ex-Im Bank Pursuant to its Credit Agreement.
       Finding 2B: Ex-Im Bank does not have the right to inspect and audit the books and records to
       validate the origin of local goods and services financed by Ex-Im Bank.
       Finding 2C: Local cost eligibility criteria may not be applied consistently to goods and services .




                                PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                 35
                              EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

       Recommendation 2: To strengthen compliance with Ex-Im Bank Policies and to enhance
       transparency in the financing of local cost goods and services, the OIG makes the following
       recommendations to Ex-Im Bank:
           x   Reserve the right of inspection and audit of the borrower’s books and records in Ex-Im Bank’s
               credit agreements, particularly for project financings. This right should be provided on an
               ongoing basis and not be restricted to the occurrence of an Event of Default.
           x   Require borrowers to maintain a set of verifiable records subject to audit and consider
               extending this inspection right to the records of construction contractors as applicable.
           x	 Consider additional requirements to provide greater transparency and to facilitate validation of
              compliance, such as requiring the Borrower to provide, when requested, more descriptive
              information and details regarding local cost disbursements.
           x	 Review and evaluate Local Cost Policy with respect to the origin of local services to explicitly
              state its criteria and requirements for funding such services in keeping with transparency,
              consistency, Ex-Im Bank’s statutory mandate to create U.S. jobs, and defined business
              strategy.


Management Response
The Bank agrees to review and evaluate the current local cost policy. The Bank notes that Ex-Im conducts a
higher level of pre-disbursement due diligence to protect the taxpayers than other ECAs which may rely on
potential post-disbursement document reviews. Any changes to the Bank's credit agreements will need to be
evaluated by the Bank's business and legal divisions. The Bank will also evaluate the recommendations
regarding the required local cost information for transactions and determine what mechanism would be
practical and feasible, as well as legally sound, to validate the information the Bank currently receives through
the local cost certification process.
In addition, section 2(i) of the Bank’s 2012 Charter requires the Bank to "set due diligence standards for its
lender partners and participants " and "require all delegated lenders to implement 'Know your customer
practices.'" The Bank has taken into consideration prior Government Accountability Office (GAO) and OIG
recommendations in developing the Bank's current policy on "Know Your Customer Requirements and Due
Diligence Standards" (posted 5/22/14) which contains "Cooperation Requirements and Reservation of Rights."
As part of the cooperation requirement s, all participants in Ex-Im Bank transactions (defined as a lender in
direct privity with Ex-Im Bank, a borrower , a guarantor, a buyer, an exporter, an Ex-Im bank approved broker,
an assignee or Enhanced assignee, or an agent, broker , finder or representative for any of the foregoing) are
"expected to cooperate with all request s of Ex-Im Bank for documents and information related to any
transaction involving Ex-Im Bank which, in Ex-Im Bank's sole discretion, are necessary to review any
participant's due diligence process, underwriting, know your customer practices, documentation, funding and
operation of any and all Ex-Im Bank transactions, both before and after approval and consummation of a
transaction." The reservation of rights provides additional mechanisms for the Bank to review and make
determinations based on "know your customer" and due diligence practices.




                                PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                               36
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

Evaluation of Management’s Response
Management’s proposed actions are responsive; therefore, the recommendation is resolved and will be
closed upon completion and verification of the proposed actions.




Point of Inquiry 3: Did Ex-Im Bank conduct sufficient due diligence and monitoring of the key project
risks, parties involved, exposures, and red flags in accordance with Ex-Im Bank policies and project finance
best practices? Were the relevant risks identified, evaluated, and mitigated accordingly?
       Finding 3A: Although Ex-Im Bank took a number of proactive, carefully-considered steps to mitigate
       construction cost overruns through (b) (4)

                                  , the foreign exchange (“FX”) risk during construction was not separately
       addressed and sufficiently evaluated. In retrospect, FX exposure accounted for $2.1 billion in a (b)
             project cost overrun and (b) (4)                                         .                  (4)

       Finding 3B: Monitoring of Foreign Exchange Losses and Financial Projections was not sufficiently
       proactive.

       Recommendation 3:
          x	 In addition to completion guarantees, Ex-Im Bank should evaluate foreign exchange
             exposure during construction as a separate risk factor in mitigating construction cost
             overruns, and depending on the potential magnitude of the foreign exchange risk, consider
             requiring the borrower to mitigate the exposure through hedging or other means as a
             condition of lending.
              Additionally, if deemed material, foreign exchange volatility should be included in the
              financial model as a relevant variable subject to stress testing and sensitivity analysis.
          x	 To assure a proactive management of credit risks and a timely evaluation of key documents
             to include financial projections, OIG recommends that Ex-Im Bank (1) review its staffing
             levels in its Asset Management Division to be in line with workloads, industry best practices,
             and ongoing requirements and (2) and consider assigning additional personnel, resources
             and training as necessary.


Management Response
As part of the Bank 's risk management framework, Ex-Im Bank staff, as well as technical and financial
advisors, conducted extensive due diligence regarding the construction period risk, in cluding foreign
exchange risk, for this Project. The Bank appreciates OIG finding that Bank staff "took a number of
proactive, carefully-considered steps to mitigate construction cost overruns through completion
guarantees." A completion guarantee was determined to be an effective means to mitigate several types
of risk. In the PNG LNG project, staff relied on three structures to mitigate the cost overrun risk: (i) the
negotiated Supplemental Debt cap, (ii) the completion guarantees and (iii) the Coordinated Development

                               PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                               37
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL

and Operating Agreement (CDOA) among project sponsors to protect the lenders from cost overruns. The
Bank, in accordance with the OIG recommendation agrees to evaluate the foreign exchange exposure
during construction as a separate risk factor, and include foreign exchange volatility in the financial model
as deemed necessary.
Regarding the second part of this recommendation, the Bank continually reviews staffing levels in all
areas, and must work within budgetary and work space constraints for staffing issues. Since FY 2012, the
Bank has increased, by 45%, the monitoring staff for the Long Term Monitoring Group. The Bank's Audit
Committee is conducting a review with outside consultants to benchmark our staffing levels against peer
institutions. Also, the FY 2014 appropriations from the U.S. Congress provided for additional
administrative funds enabling management to allocate new staff resources in line with workloads,
industry best practices, and ongoing requirements.


Evaluation of Management’s Response
Management’s proposed actions are responsive; therefore, the recommendation is resolved and will be
closed upon completion and verification of the proposed actions.




                               PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                           38
                                EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


APPENDIX A: MANAGEMENT RESPONSES


The letter from the Ex-Im Bank of June 5. 2014 responding to the draft report is
reproduced in full on the following pages:




                                   PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                   39
                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




                                           E x po rt- I m po rt B a n k
                                              of the     U   n it e d   S tates



                                                                                              June 5, 2014

Osvaldo Gratacós
Inspector General
Office of the Inspector General
Export-Import Bank of the United States
811 Vermont Avenue NW
Washington, DC 20571


Dear Inspector General Gratacós,

Thank you for providing the Export-Import Bank of the United States (“Ex-Im Bank” or “the
Bank”) Management with the Office of the Inspector General’s (OIG) “Report on PNG LNG
Project” (OIG-INS-14-01, May 21, 2014). Management continues to support the OIG’s work
and inspections which complement the Bank’s efforts to continually improve its practices and
procedures. Ex-Im Bank is proud of its strong and cooperative relationship with the OIG.

The Bank appreciates the OIG recognizing that this transaction, in the aggregate, was “well-
structured and properly documented.” This Project continues to perform and the Bank remains
confident of full repayment. This report on the Bank’s Papua New Guinea (PNG) Liquefied
Natural Gas (LNG) transaction makes three recommendations regarding the Bank’s Character,
Reputational and Transaction Integrity (CRTI) process, local cost policy, and foreign exchange
risk analysis.

Recommendation 1: To strengthen the effectiveness and transparency of the CRTI/KYC due
diligence, OIG recommends that Ex-ImBank review and evaluate its current CRTI policies and
procedures, giving consideration to the following:

        -         Enhance efficiency and effectiveness of the CRTI/KYC due diligence by implementing
a risk-based assessment to determine the appropriate level of due diligence required for each
transaction. On the basis of these results, develop an appropriate systematic plan to screen,
mitigate and monitor CRTI risk, particularly in the critical pre-approval stage of a transaction.




                         811 V e r m o n t A v e n u e , N .W .   W a s h in g t o n ,   D.C. 20571




                       PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                             40
                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




        - Conduct enhanced, upfront internet web screening to include local in-country sources
and media for Politically Exposed Persons (PEPs) and other potential reputational/integrity
issues.

        - Employ vertical and affiliated relationship analysis to “pierce the ownership veil” to
identify nontransparent and relational CRTI risks including owners, sponsors, EPC contractors,


       - Expand the external databases and sources being used for CRTI screening beyond the
20 watch lists of World-Check currently being used.

       - Implement CRTI screening on all relevant transactional parties on a regular, periodic
basis during asset monitoring subsequent to initial due diligence.

       - Develop a dialogue with multilateral financial institutions such as IFC to learn more
about CRTI and KYC best practices.

Management response: Management is currently reviewing and evaluating its current
KYC/CRTI process, and expects to have this completed by the end of this calendar year.
Management agrees to take the OIG recommendations into consideration. Due to budgetary and
staffing constraints, the Bank will need to conduct a cost-benefit analysis to determine the level
of participant review which is both practical and feasible. The Bank has already added another
database to the CRTI screening process and will continue to evaluate other potential databases
for inclusion. The Bank notes that local in-country sources and media are often politically
motivated, therefore not the most accurate and reliable sources of information.

Recommendation 2: To strengthen compliance with Ex-Im Bank Policies and to enhance
transparency in the financing of local cost goods and services, the OIG makes the following
recommendations to Ex-Im Bank:

       - Reserve the right of inspection and audit of the borrower’s books and records in Ex-Im
Bank’s credit agreements, particularly for project financings. This right should be provided on an
ongoing basis and not be restricted to the occurrence of an Event of Default.

       - Require borrowers to maintain a set of verifiable records subject to audit and consider
extending this inspection right to the records of construction contractors as applicable.

        - Consider additional requirements to provide greater transparency and to facilitate
validation o f compliance, such as requiring the Borrower to provide, when requested, more
descriptive information and details regarding local cost disbursements.




                       PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                     41
                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




        - Review and evaluate Local Cost Policy with respect to the origin o f local services to
explicitly state its criteria and requirements for funding such services in keeping with
transparency, consistency, the statutory mandate to create U.S. jobs and defined business
strategy.

Management response: The Bank agrees to review and evaluate the current local cost policy. The
Bank notes that Ex-Im conducts a higher level of pre-disbursement due diligence to protect the
taxpayers than other ECAs which may rely on potential post-disbursement document reviews.
Any changes to the Bank’s credit agreements will need to be evaluated by the Bank’s business
and legal divisions. The Bank will also evaluate the recommendations regarding the required
local cost information for transactions and determine what mechanism would be practical and
feasible, as well as legally sound, to validate the information the Bank currently receives through
the local cost certification process.

In addition, section 2(i) of the Bank’s 2012 Charter requires the Bank to “set due diligence
standards for its lender partners and participants” and “require all delegated lenders to implement
‘Know your customer practices.’” The Bank has taken into consideration prior Government
Accountability Office (GAO) and OIG recommendations in developing the Bank’s current
policy on “Know Your Customer Requirements and Due Diligence Standards” (posted 5/22/14)
which contains “Cooperation Requirements and Reservation of Rights.” As part o f the
cooperation requirements, all participants in Ex-Im Bank transactions (defined as a lender in
direct privity with Ex-Im Bank, a borrower, a guarantor, a buyer, an exporter, an Ex-Im bank
approved broker, an assignee or Enhanced assignee, or an agent, broker, finder or representative
for any o f the foregoing) are “expected to cooperate with all requests of Ex-Im Bank for
documents and information related to any transaction involving Ex-Im Bank which, in Ex-Im
Bank’s sole discretion, are necessary to review any participant’s due diligence process,
underwriting, know your customer practices, documentation, funding and operation of any and
all Ex-Im Bank transactions, both before and after approval and consummation of a transaction.”
The reservation of rights provides additional mechanisms for the Bank to review and make
determinations based on “know your customer” and due diligence practices.

Recommendation 3:

       - In addition to completion guarantees, Ex-Im Bank should evaluate foreign exchange
exposure during construction as a separate risk factor when mitigating construction cost overruns
and depending on the potential magnitude of the foreign exchange risk, consider requiring the
borrower to mitigate the exposure through hedging or other means as a condition of lending.
Additionally, if deemed material, foreign exchange volatility should be included in the financial
model as a relevant variable subject to stress testing and sensitivity analysis.




                       PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                      42
                    EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL




        -          To assure a proactive management of credit risks and a timely evaluation of key
documents to include financial projections, OIG recommends that Ex-Im Bank (1) review its
staffing levels in its Asset Management Division to be in line with workloads, industry best
practices, and ongoing requirements and (2) and consider assigning additional personnel,
resources and training as necessary.

Management response: As part o f the Bank’s risk management framework, Ex-Im Bank staff, as
well as technical and financial advisors, conducted extensive due diligence regarding the
construction period risk, including foreign exchange risk, for this Project. The Bank appreciates
OIG finding that Bank staff “took a number of proactive, carefully-considered steps to mitigate
construction cost overruns through completion guarantees.” A completion guarantee was
determined to be an effective means to mitigate several types of risk. In the PNG LNG project,
staff relied on three structures to mitigate the cost overrun risk: (i) the negotiated Supplemental
Debt cap, (ii) the completion guarantees and (iii) the Coordinated Development and Operating
Agreement (CDOA) among project sponsors to protect the lenders from cost overruns. The
Bank, in accordance with the OIG recommendation agrees to evaluate the foreign exchange
exposure during construction as a separate risk factor, and include foreign exchange volatility in
the financial model as deemed necessary.

Regarding the second part of this recommendation, the Bank continually reviews staffing levels
in all areas, and must work within budgetary and work space constraints for staffing issues.
Since FY 2012, the Bank has increased, by 45%, the monitoring staff for the Long Term
Monitoring Group. The Bank’s Audit Committee is conducting a review with outside
consultants to benchmark our staffing levels against peer institutions. Also, the FY 2014
appropriations from the U.S. Congress provided for additional administrative funds enabling
management to allocate new staff resources in line with workloads, industry best practices, and
ongoing requirements.

We thank the OIG for your efforts to ensure the Bank’s policies and procedures continue to
improve, as well as the work you do with us to protect Ex-Im funds from fraud, waste, and
abuse. We look forward to continuing to work closely with the Office o f the Inspector General.



Sincerely,




Charles J. Hall
Executive Vice President and Chief Risk Officer
Export-Import Bank o f the United States




                       PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                      43
                               EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


APPENDIX B: LOCAL COST POLICY OF EX-IM BANK
As posted on Bank’s website: (http://www.exim.gov/generalbankpolicies/localcost/)
Local cost
When Ex-Im Bank provides medium- or long-term guarantee, loan, or insurance support for U.S. exports for
foreign projects, it may also provide local cost support. Local costs are those project-related costs for goods
and services incurred in the buyer's country.
Ex-Im Bank can support up to 30% of the value of the U.S exports for locally originated and/or manufactured
goods and services subject to the following availability and eligibility guidelines.
Availability
Long-Term Transactions: Ex-Im Bank may provide local cost support for all long-term transactions.
Medium-Term Transactions: Ex-Im Bank may provide local cost support if the U.S. exporter can prove either:
(i) the availability of official export credit support for the local cost; or (ii) private market financing of local
costs is difficult to obtain for the transaction.
Ex-Im Bank offers “automatic” local cost support for all environmental exports, medical exports, and project
finance transactions (including medium-term transactions).
All transactions that receive local cost support must meet the eligibility criteria defined below.
Eligibility
If Ex-Im Bank provides local cost support for long-term or medium-term limited recourse project finance
transactions, then the local costs must be:
    x   Beneficial to the project;
    x   Certified by the Borrower;
    x   Detailed in the Acquisition List; and
    x   Originated/manufactured in the host country. Services must be provided by individuals and/or
        business entities that are residents of the host country.
Note: Ex-Im Bank will require the Borrower to certify that the local cost support was not used to cover
products that could reasonably be purchased in the U.S.
If Ex-Im Bank provides local cost support for medium-term transactions, then the local costs must be:
Related to the U.S. exporter's scope of work;
Certified by the U.S. exporter in the Exporter's Certificate; and
Originated/manufactured in the host country. Services must be provided by individuals and/or business
entities that are residents of the host country.

Note: The decision to extend local cost support is subject to budgetary and other discretionary considerations

as determined by Ex-Im Bank's management. 




                                     PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                                       44
                  EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


  APPENDIX C: LOCAL COST INVOICE DESCRIPTIONS

(b) (4)




                    PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                     45
                 EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


 APPENDIX D: INSPECTION RIGHTS OF EXPORT CREDIT AGENCIES53
(b) (4)




  (b) (4)




                   PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                    46
                      EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


      APPENDIX E: CRTI TRANSACTION DUE DILIGENCE GUIDELINES
(b) (5)




                        PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                         47
                 EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


APPENDIX E: CRTI TRANSACTION DUE DILIGENCE GUIDELINES (Cont.)
(b) (5)




                   PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                    48
                EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


APPENDIX F: PNG LNG TRANSACTION TIME LINE

(b) (4)




                  PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                   49
          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL
(b) (4)




            PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                             50
          EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL
(b) (4)




            PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                             51
                             EXPORT-IMPORT BANK – OFFICE OF INSPECTOR GENERAL


                                       Acknowledgements
This report was prepared by the Inspection and Evaluation Group; Office of Inspector General for the Export-
Import Bank of the United States. Several individuals contributed to this report including Mark S. Thorum;
Assistant Inspector General for Inspections and Evaluations; Donald B. Reid, Senior Inspector; Vania Georgieva,
Inspector; and Daniel Wong, Inspector.




Office of Inspector General
Export-Import Bank of the United States
811VermontAvenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig


                                PNG LNG INSPECTION REPORT OIG -INS-14-01
                                                                                                            52
